WAIVE

Supreme Court, U.S.
FILED

APR 2 8 2021
11:1
!
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-7670

Faizah Dean

Workers' Comp. Appeals Bd., et al.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.
0_ There are multiple respondents,.and I do not represent all respondents. Please enter my
appearance' C61.fifgel Of:Recol-d fdi the following respondent(s):

California Workers: Compensation; Appeals Board

I am a member of the Bar of the Supreme-Court-of the United States;..
D I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a ,Bar meinber.
Signaturel

April
Date.

28, 2021

(Type or print) Name

Anne Schmitz, Cal. State Bar No. 166664
D Mr.

Firm

[11 Ms.

El Mrs.

❑ Miss

California Workers' Compensation Appeals Board
i 455 Golden-Gate Avenue,9th-Floot

Address

City & State
Phone

San Francisco, CA

415-703-4554

Zip
Email

94102
•

ASchmitz@dir.ca.gov

A COPY OF THIS FORM MUST BE - SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ,ADDITIONAL URT,IFI.CATE -OF .SERVICE 1S REQUIRED.

CC: see attached Proof of Service
by Mail •
„

RECEIVED
MAY - 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

PROOF OF SERVICE BY MAIL
(Code Civ. Proc., §1010.6; Lab. Code, §5954;
Cal. Rules of Court, Rules 8.70 - 8.79)
STATE OF CALIFORNIA
)ss.
CITY AND COUNTY OF SAN FRANCISCO)
I am over 18 years of age and not a party to this action. I am employed in
the county where the mailing took place.. My business address is 455 Golden Gate
Avenue, Suite 9328, San Francisco, CA 94102.
On April 28, 2021 I served the within Waiver to the court clerk in the matter of
Case No. 20-7670, Faizah Dean v. Workers' Compensation Appeals Board, et al.
on the Supreme Court of the United States and on the parties by U.S. mail. I am
readily familiar with this business's practice for collecting and processing
correspondence for mailing. On the same day that correspondence is placed for
collection and mailing, it is deposited in the ordinary course of business with the
United States Postal Service in sealed envelopes with postage fully prepaid. The
envelopes were addressed and mailed as follows:
Supreme Court of the U.S. (original)
One First Street, NE
Washington, DC 20543

Faizah Dean (one copy)
8202 Magnolia Avenue #11
Riverside, CA 92504

Peter J. Karizen
4001 Inglewood Blvd., Bldg. 1 #303
Redondo Beach, CA 90278

I declare under penalty of perjury under the laws of the State of California
that the foregoing is true and correct, and that this declaration was executed at
San Francisco, California on April 28, 2021.

oiftnevvfryc
Betsy E. Aduviso

